UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-3484
Michael A. Harris
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the Western District of Missouri - Kansas City
(4:19-cv-00545-DGK)
ORDER
Appellant’s pending motion for reconsideration is denied.

March 17, 2020

Order Entered at the.Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

I •

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-3484

Michael A. Harris
Movant - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the Western District of Missouri - Kansas City
(4:19-cv-00545-DGK)
JUDGMENT

Before LOKEN, SHEPHERD, and GRASZ, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
January 31, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

I

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
JUDGMENT IN A CIVIL CASE
Michael A. Harris.,
Movant,
V.

Case No. 4:19-cv-00545-DGK-P
Crim. No. 4:17-cr-00348-DGK-2

United States of America,
Respondent.

□

JURY VERDICT. This action came before the Court for a trial by jury. The issues
have been tried and the jury has rendered its verdict.
DECISION OF THE COURT. This action came for consideration before the
Court. The issues have been considered and a decision has been rendered.

IT IS ORDERED AND ADJUDGED: ORDERED that Movant's motion to vacate, set
aside, or correct sentence pursuant to 28 U.S.C. § 2255 is DENIED and a Certificate of
i
Appealability is DENIED. This action is dismissed.
Entered on: October 1. 2019.
PAIGE WYMORE-WYNN
CLERK OF COURT

/s/ C. Davies
(By) Deputy Clerk

Case 4:19-cv-00545-DGK Document 17 Filed 10/01/19 Page 1 of 1

